Office of Inspector General



     Semiannual Report to Congress
          Covering the Period

     October 1, 2012 – March 31, 2013




FEDERAL MARITIME COMMISSION
                                      FEDERAL MARITIME COMMISSION
                                             800 North Capitol Street, N.W.
                                                Washington, DC 20573




Inspector General


MEMORANDUM

DATE:           April 18, 2013

TO:             Chairman Mario Cordero
                Commissioner William P. Doyle
                Commissioner Rebecca F. Dye
                Commissioner Michael A. Khouri
                Commissioner Richard A. Lidinsky, Jr.


FROM:           /Dana Rooney-Fisher/
                Interim Inspector General

SUBJECT:        Semiannual Report of the Federal Maritime Commission
                Inspector General


I am pleased to enclose the Office of Inspector General’s (OIG) Semiannual Report to Congress
prepared in accordance with the requirements of the Inspector General Act of 1978, as amended
(hereafter referred to as the IG Act). This report covers audits, investigations and other reviews
conducted by the OIG from October 1, 2012 through March 31, 2013.

Please note that §5(b) of the IG Act provides that the semiannual report must be transmitted by
the establishment head to the appropriate committees or subcommittee of the Congress within 30
days after receipt of the report, together with a report by the establishment head set forth in
§5(b)(1-4). Further, pursuant to §5(c) of the IG Act, the semiannual report of the Inspector
General and the report of the establishment head shall be made available to the public within

60 days upon request and at a reasonable cost. This requirement can be satisfied by posting the
reports to the Agency’s internet website.

If you have questions, please let me know.
                                                   TABLE OF CONTENTS

Transmittal Letter

EXECUTIVE SUMMARY .......................................................................................................... 1

FEDERAL MARITIME COMMISSION................................................................................... 2

OFFICE OF INSPECTOR GENERAL ...................................................................................... 2

OFFICE OF INSPECTOR GENERAL ACTIVITIES ............................................................. 3

   Completed Audits and Evaluations ............................................................................................. 3
   Management and Performance Challenges ................................................................................. 6
   Planned Audits and Evaluations ................................................................................................. 7
   Investigations .............................................................................................................................. 7
   Other Activities ........................................................................................................................... 8

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS .......................... 11

   TABLE I – Summary of Audit Reports with Corrective Actions Outstanding for
                     More than 1 Year .................................................................................................. 12 
   TABLE II- Listing of Audit Reports Issued ............................................................................. 13 
   TABLE III – Reports with Questioned Costs ........................................................................... 14 
   TABLE IV – Recommendations that Funds be Put to Better Use ............................................ 15 


APPENDIX A – Acronyms and Abbreviations ........................................................................ 16 
                                EXECUTIVE SUMMARY 

       This Semiannual Report summarizes the activities and accomplishments of the Federal
Maritime Commission (FMC or Commission), Office of Inspector General (OIG) for the period
October 1, 2012 through March 31, 2013. The most significant activities of the OIG during the
first half of Fiscal Year (FY) 2013 are noted below. Additional details pertaining to each activity
can be found in subsequent sections of this report.

       On January 11, 2013, Adam R. Trzeciak resigned from the FMC OIG after serving as
Inspector General since 2006. On January 22, 2013, the Commission named Dana Rooney-
Fisher to serve as Interim Inspector General while a search for a permanent Inspector General
(IG) is conducted. Ms. Rooney-Fisher is concurrently serving as the Inspector General of the
Federal Labor Relations Authority (FLRA).

       During this reporting period the OIG issued four reports, the Audit of FMC’s Transit
Benefit Program ( A13-01); Evaluation of the FMC’s FY 2012 Privacy and Data Protection
(A13-02); Evaluation of FMC’s Compliance with the Federal Information Security Management
Act FY 2012 (A13-03); and the Independent Auditor’s Report of FMC’s FY 2012 Financial
Statements, (A-13-04) Also, the OIG issued a Management Letter (A-13-04A) in connection
with the FY 2012 financial statement audit.

       The OIG determined that the Commission is compliant with the Improper Payments
Elimination and Recovery Act of 2010.

       During this reporting period, the OIG received eight complaints, two of which reported
the same allegations. We responded to one of the complaints and forwarded five complaints to
the appropriate FMC program areas for disposition or to other agency OIGs or programs with
jurisdiction over the subject matter of the complaint. Because two of the allegations reported the
same misconduct, the OIG combined the allegations, began a preliminary investigation and
consulted with prosecutorial authorities.

       In addition to these audit and investigative activities and outcomes, the OIG continued to
work with the agency’s Office of the General Counsel to update and issue Commission Order

October 1, 2012 – March 31, 2013                                                            Page 1
113 pertaining to IG reporting requirements as required by the Dodd-Frank Wall Street Reform
and Consumer Protection Act (Public Law 111-203).


                        FEDERAL MARITIME COMMISSION 

       The FMC is an independent agency responsible for the regulation of ocean borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are: the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.

       The FMC is headed by five commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. Although the majority of FMC personnel are located in
Washington, D.C., the Commission also maintains a presence in Los Angeles, Seattle, New
York, New Orleans, Houston, and South Florida through area representatives who serve the
major ports and transportation centers within their respective geographic areas. In addition, one
at-large area representative operates from Washington, D.C.


                         OFFICE OF INSPECTOR GENERAL 

       The OIG was established in 1989 by the Inspector General Act of 1978, as amended (5
U.S.C. app.). The OIG is an independent audit and investigative unit headed by an IG who
reports to the FMC Commissioners. To aid the FMC in accomplishing its mission in FY 2013,
the OIG is provided three full-time staff.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
The OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities contracting with, or obtaining benefits from, the agency.
The Inspector General Act provides that the OIG shall have access to all agency records and may
subpoena records from entities outside of the agency in connection with an audit or investigation.




October 1, 2012 – March 31, 2013                                                           Page 2
       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC
Commissioners, the President of the Senate, the Speaker of the House and FMC’s appropriating
and authorizing committees. This dual reporting requirement helps to ensure the independence
of the OIG.


                OFFICE OF INSPECTOR GENERAL ACTIVITIES

Completed Audits and Evaluations 


       Audit of FMC’s Transit Benefit Program, A13-01. The objectives of the audit were to
determine whether there are controls in place to monitor the Transit Benefit Program and
whether employees are adhering to Commission policy and program guidelines.

       The OIG found that the Commission has internal controls in place for the Transit Benefit
Program. The application and corresponding review processes were complete and thorough.
Benefit subsidies are based on home addresses, computed by program participants and verified
by the Transit Benefit Coordinator before subsidies are provided. The application is reviewed
and signed by the program participant, his/her supervisor, the Transit Benefit Manager and the
Managing Director.

       Although controls are in place, we identified areas where improvements in Program
administration and oversight are possible. Currently, the transit benefits are computed based on
an 8-hour day, 5 day week, as it has been since program inception. However, this formula does
not match the numerous work-life benefits employees enjoy, including alternative work
scheduling and telework. As a result, many employees work or commute less than 20 days per
month. The OIG believes that the “one size fits all” standard for computing transit costs should
be revisited.

       Additionally, we identified duplicate payments to program participants from our review
of the monthly reports for 2 months of our review period that should have been identified and
challenged. We also identified weak controls in the employee clearance process regarding transit



October 1, 2012 – March 31, 2013                                                           Page 3
benefits. The OIG identified one program participant who continued to receive benefits for 3
months after leaving the agency.

       The OIG identified five findings and made recommendations to address the weaknesses
identified. Management agreed with the recommendations and has taken action to close them.


       Evaluation of the FMC’s FY 2012 Privacy and Data Protection, A13-02. The OIG
oversaw an independent third-party review of agency use of personally identifiable information
(PII) and its privacy and data protection policies and procedures. PII is information which can
be used to distinguish or trace an individual's identity, such as their name, social security
number, biometric records, etc., alone, or when combined with other personal or identifying
information, which is linked or linkable to a specific individual, such as date and place of birth,
mother’s maiden name, etc. This evaluation satisfies the required third-party review.

       The agency has improved its privacy program since our last review in 2010. For
example, it closed two of four deficiencies and has created policies and procedures to log, verify
and reassess data extracts from databases holding sensitive information for longer than 90 days.
Also, the agency removed the Privacy Impact Assessment (PIA) for the FMC-18, Automated
Application for a License as an Ocean Transportation Intermediary, from its website because it is
a component of another system, the FMC Database, and, therefore, does not require a PIA.

       We also identified areas where controls in select areas can be improved. The FMC’s
Senior Agency Official for Privacy, the Privacy Act Officer, the Chief Information Officer and
senior managers have responsibility for agency systems and compliance with Federal laws,
regulations, and policies relating to information privacy. Although there is interaction and
communication between these individuals, communication and coordination on information
privacy, including review of systems and determinations for PIAs, could be improved. Many
subsidiary systems have not had an analysis performed to identify if a PIA is required for
completion. We also identified concerns with System of Records Notices postings and “routine
uses” for systems. Three existing PIAs are outdated and the agency has not informed the public
about some systems containing PII.



October 1, 2012 – March 31, 2013                                                                Page 4
       The OIG has closed two of four previously made recommendations based on management’s
response and OIG follow up. However, the OIG made five new recommendations to address these
needed improvements.

       Evaluation of FMC’s Compliance with the Federal Information Security Management
Act FY 2012, A13-03. The objectives of the independent evaluation of the FMC’s information
security program were to evaluate its security posture by assessing compliance with the Federal
Information Security Management Act and related information security policies, procedures,
standards, and guidelines. The scope of this task included the FMC Network, and applications
housing service contracts, tariff location filings and FMC license applications. The OIG also
performed a network scan to identify potential system vulnerabilities and assessed management
actions to implement prior-year recommendations.

       The FY 2012 report contains two new subject matter findings and two recommendations
for corrective action. Scan results were provided to Office of Information Technology (OIT)
network staff as soon as results were known to enable them to make needed adjustments. No
serious vulnerabilities were found.

       The report also includes a follow up of 21 prior year issues. Of those 21 recommendations
11 have been closed and 10 remain open.



       Independent Auditor’s Report of FMC’s FY 2012 Financial Statements, A13-04. The
audit objectives were to opine on whether the FMC’s FY 2012 financial statements follow U.S.
Generally Accepted Accounting Principles (GAAP) and present fairly the financial position of
the agency. The OIG also reviewed internal controls over financial reporting and agency
compliance with laws and regulations. The statements to be audited are the Balance Sheets as of
September 30, 2012 and 2011, and the related Statements of Net Cost, Statements of Changes in
Net Position, Statements of Budgetary Resources and Statements of Custodial Activity.


       This was the 9th consecutive year that the FMC prepared financial statements for audit.
The independent auditor opined that the Federal Maritime Commission’s financial statements
were fairly presented, in all material respects, in conformity with GAAP; there were no material

October 1, 2012 – March 31, 2013                                                           Page 5
weaknesses in internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations; and no reportable noncompliance with laws and
regulations tested.

       Management Letter for Fiscal Year 2012Audit of the Federal Maritime Commission
Financial Statements, A13-04A. The independent auditor, under contract with the OIG,
reviewed FMC’s internal controls over financial reporting and, for FY 2012, did not find any
matters that were considered a material weakness in the systems and processes tested. This
year’s management letter contains a follow-up on seven findings and recommendations from
previous years. Of the seven outstanding recommendations, one remains open, Formal
Procedures Needed to Track Civil Penalties. Previously, OIG recommended that the Office of
the General Counsel (OGC) should maintain a database of all civil monetary penalties assessed
by the agency. This database should identify the date of the penalty, the defendant’s name, the
monetary penalty amount, payment amount and payment date(s). The spreadsheet should be
provided to the Office of Budget and Finance (OBF) with each modification to enable it to
record collections against the judgment and timely refer past due amounts to Treasury for
collection in accordance with the Debt Collection Improvement Act. All payment activity
should be noted on the spreadsheet and shared between OGC and OBF. We noted that the draft
Managing Directive that addresses debt collection agency wide, including civil penalties,
transfers to Treasury, and maintenance of an accounts receivable report has not been put in
operation. We will monitor management’s progress and we will opine on the effectiveness of
the new system in our FY 2013 Management Letter.

       Federal Maritime Commission Compliance with the Improper Payments Elimination
and Recovery Act of 2010. The OIG made a determination that FMC is compliant with
applicable provisions of the Improper Payments Elimination and Recovery Act of 2012, in
accordance with Sec. 3(b) of Public Law 11-204, Improper Payments Elimination and Recovery
Act of 2010.

Management and Performance Challenges 

       On November 22, 2000, the President signed the Reports Consolidation Act of 2000,
Public Law 106-531, an amendment to the Chief Financial Officers (CFO) Act of 1990. The

October 1, 2012 – March 31, 2013                                                              Page 6
Reports Consolidation Act requires inspectors general to provide a summary and assessment of
the most serious management and performance challenges facing Federal agencies and their
progress in addressing these challenges. On October 18, 2012, we provided the Commission the
most serious management and performance challenges facing the FMC, along with a brief
assessment of management’s progress in addressing them. These ongoing challenges included
resource shortages and information technology security. Although the agency has made some
improvement managing its resources, the information technology security deficiencies remain
unacceptably high.

Planned Audits and Evaluations 

       The OIG plans to initiate the following audit and evaluations during the second half of
FY 2013:
       1) Audit of Expenditures for Furnishing, Redecorating or Making Improvements to the
           Offices for Commissioner’s of the Federal Maritime Commission;
       2) Financial Statement Audit of the Federal Maritime Commission for Fiscal Year 2013;
           and
       3) Evaluation of the Federal Maritime Commission Compliance with the Federal
           Information Security Management Act Fiscal Year 2013.

Investigations 


       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public.


       During this reporting period, the OIG received eight complaints, two of which reported
the same allegations. The hotline complaints were received through the following methods: 3
anonymous contacts, 4 emails, and 1 facsimile. We responded to one of the complaints and
forwarded five complaints to the appropriate FMC program areas for disposition or to other


October 1, 2012 – March 31, 2013                                                            Page 7
agency OIGs or programs with jurisdiction over the subject matter of the complaint. The OIG
began a preliminary investigation on the duplicate complaint and consulted with the Department
of Justice regarding the allegations. Currently, this matter remains open. The OIG reported in
our previous semiannual report to Congress (April 1, 2012-September 30, 2012), that an
investigation was opened. This investigation remains open during this reporting period.

Other Activities 

                                           Peer Review

       Federal offices of Inspector General are required by the IG Act to have a peer review
performed once every 3 years. These reviews are to be performed only by Federal auditors. A
committee of the CIGIE schedules the review to ensure that resources are available to perform
them and that OIGs do not conduct reciprocal reviews.

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       The Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, Public Law
111-203, requires federal offices of inspectors general to include in their semiannual reports to
Congress an appendix containing the results of any peer review conducted by another OIG
during the reporting period, or, if no peer review was conducted within that reporting period, a
statement identifying the date of the last peer review conducted by another OIG.

       The Postal Rate Commission, OIG Completed a peer review of the FMC OIG and issued
a report on March 28, 2013. The peer review was conducted for the period October 1, 2009
through September 30, 2012. The report has a rating of pass, and it is available on the FMC OIG
website.




October 1, 2012 – March 31, 2013                                                              Page 8
                               Memorandum of Understanding


       The Federal Labor Relations Authority signed a Memorandum of Understanding with the
Commission under which the FLRA’s Inspector General acts as the Commission’s Interim
Inspector General while the Commission conducts a search for a permanent IG.


                                     Review of Legislation

       As required by the Inspector General Act of 1978, as amended, the OIG routinely reviews
proposed legislation and regulations. The purpose of these reviews is to assess whether the
proposed legislation or regulation: (1) impacts the economy and efficiency of FMC programs
and operations; and (2) contains adequate internal controls to prevent and detect fraud and abuse.
During this reporting period, the OIG did not review any legislation and regulations relating to
FMC.
                                    Review of FMC Policies


       During this semiannual period, the OIG is working with the agency’s Office of the
General Counsel to revise Commission Order 113 pertaining to OIG reporting responsibilities.
The revised policy is currently being reviewed by the OIG counsel.


            Council of Inspectors General on Integrity and Efficiency Activities

       The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

   •   address integrity, economy and effectiveness issues that transcend individual government
       agencies; and
   •   increase the professionalism and effectiveness of personnel by developing policies,
       standards, and approaches to aid in the establishment of a well-trained and highly skilled
       workforce in the Office of Inspectors General.




October 1, 2012 – March 31, 2013                                                             Page 9
       The CIGIE is comprised of all inspectors general that are Presidentially-appointed /
Senate confirmed and those that are appointed by agency heads (designated federal entities). The
OIG remains active in CIGIE operations. Specifically, the Interim Inspector General is a
member of the Inspection and Evaluation Committee. The Assistant Inspector General
participates in Federal Audit Executive Council (FAEC) activities. The FAEC is comprised of
senior audit staff from agency OIGs that discuss and coordinate issues affecting the federal audit
community -- with special emphasis on audit policy and operations of common interest to FAEC
members. The Counsel to the Inspector General participates in the Council of Counsels to the
Inspector General (CCIG) activities. The CCIG consists of senior counsel from agency OIGs
who discuss various legal issues that affect the OIG community.

                                                  




October 1, 2012 – March 31, 2013                                                           Page 10
                          SUMMARY OF INSPECTOR GENERAL
                             REPORTING REQUIREMENTS


        IG Act Reference                 Reporting Requirement                 Pages

       Section 4(a)(2)       Review of legislation and regulations              9

       Section 5(a)(1)       Significant problems, abuses and deficiencies     None

       Section 5(a)(2)       Recommendations with respect to significant       None
                             problems, abuses, or deficiencies

       Section 5(a)(3)       Prior significant recommendations on which         12
                             corrective actions have not been completed

       Section 5(a)(4)       Matter referred to prosecutive authorities         7

       Section 5(a)(5)       Summary of instances where information was        None
                             refused

       Section 5(a)(6)       List of audit reports by subject matter            13

       Section 5(a)(7)       Summary of each particularly significant report   None

       Section 5(a)(8)       Statistical table Reports with questioned costs    14

       Section 5(a)(9)       Statistical table recommendations that funds be    15
                             put to better use

       Section 5(a)(10)      Summary of each audit issued before this          None
                             reporting period for which no management
                             decision was made by the end of the reporting
                             period

       Section 5(a)(11)      Description and explanation of significant        None
                             revised management decisions

       Section 5(a)(12)      Significant management decisions with which       None
                             the inspector general disagrees
                             Information under Section 5(b) of the Federal
       Section 5(a)(13)      Management Improvement Act (FFMIA) of             None
                             1996
       Section 5(a)(14)      Peer Review Activity                               8



October 1, 2012 – March 31, 2013                                                       Page 11
                                             
                       TABLE I – Summary of Audit Reports with
                   Corrective Actions Outstanding for More than 1 Year

                                                            Recommendations

      Report Title             Report      Issue
                                                    Number       Open    Closed
                               Number      Date
FMC’s FY 2011                  A12-02     1/17/12      20          9      11
Implementation of FISMA
FY 2010 Management            A11-02A     1/31/11       6          1          5
Letter
Review of FMC’s User           OR10-03    5/27/10       1          1          0
Fee Calculations
FY 2009 Implementation         A10-02     1/28/10      19          1      18
of FISMA
Review of BCL T&A              A09-04     6/30/09       6          1          5
Practices
Audit of Accuracy of           A06-01     3/30/06       3          1          2
BOE’s Tracking System




October 1, 2012 – March 31, 2013                                                  Page 12
                         TABLE II- Listing of Audit Reports Issued


Report       Issue         Report Title     Questioned Unsupported   Funds Put
Number       Date                             Costs       Costs       to Better
                                                                         Use
 A13-01     11/6/12    Audit of FMC’s            $0           $0        $0
                       Transit Benefit
                       Program


 A13-02     12/6/12    Evaluation of the         $0           $0        $0
                       FMC's FY 2012
                       Privacy and Data
                       Protection
 A13-03     12/21/12 Evaluation of the           $0           $0        $0
                     FMC’s Compliance
                     with the Federal
                     Information Security
                     Management Act FY
                     2012
 A13-04     11/14/12 Independent                 $0           $0        $0
                     Auditor’s Report of
                     FMC’s FY 2012
                     Financial Statements
A13-04A     3/15/13    FY 2012 Financial         $0           $0        $0
                       Statement
                       Management Letter




October 1, 2012 – March 31, 2013                                              Page 13
                                          TABLE III
                                Reports with Questioned Costs 

                                                      Number
                                                        of       Questioned   Unsupported
                                                      Reports      Costs         Costs
A. For which no management decision has been             0          $0            $0
   made by the commencement of the reporting
   period.


B.   Which were issued during the reporting period.      0          $0            $0

                                   Subtotal (A + B)      0          $0            $0

C. For which a management decision was made              0          $0            $0
   during the reporting period.

     (i)   dollar value of disallowed costs; and         0          $0            $0

     (ii) dollar value of costs not disallowed           0          $0            $0

D. For which no management decision has been             0          $0            $0
   made by the end of the reporting period.

E.   Reports for which no management decision            0          $0            $0
     was made within six months of issuance.




October 1, 2012 – March 31, 2013                                                    Page 14
                                          TABLE IV
                     Recommendations That Funds Be Put To Better Use


                                                                Number
                                                                  of
                                                                Reports   Dollar Value
      A. For which no management decision has been made
         by the commencement of the reporting period.              0          $0

      B.   Which were issued during the reporting period.          0          $0

                                            Subtotal (A + B)       0          $0

      C.   For which a management decision was made during
           the reporting period.                                   0          $0

           (i)   dollar value of recommendations that were         0          $0
                 agreed to by management; and

           (ii) dollar value of recommendations that were not      0          $0
                agreed to by management

      D. For which no management decision has been made
         by the end of the reporting period.                       0          $0

      E.   Reports for which no management decision was
                                                                   0          $0
           made within six months of issuance




October 1, 2012 – March 31, 2013                                                    Page 15
                   APPENDIX A – Acronyms and Abbreviations


  CFO                   Chief Financial Officers Act of 1990
  CIGIE                 Council of Inspectors General on Integrity and Efficiency
  CCIG                  Council of Counsels to the Inspector General
  DC                    District of Columbia
  FAEC                  Federal Audit Executive Council
  FFMIA                 Federal Financial Management Improvement Act
  FLRA                  Federal Labor Relations Authority
  FISMA                 Federal Information Security Management Act
  FMC                   Federal Maritime Commission or Commission
  FY                    Fiscal Year
  GAAP                  Generally Accepted Accounting Principles
  IG                    Inspector General
  IT                    Information Technology
  OBF                   Office of Budget and Finance
  OGC                   Office of General Counsel
  OIG                   Office of Inspector General
  PIA                   Privacy Impact Assessment
  PII                   Personally Identifiable Information




October 1, 2012 – March 31, 2013                                              Page 16
                         Contacting the Office of Inspector General



       Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations. The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed to
oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the complainant wishes to remain
anonymous).




October 1, 2012 – March 31, 2013                                                        Page 17
                 HOTLINE COMPLAINTS
The success of the OIG mission to prevent fraud, waste and abuse
depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


(202) 523-5865
E-MAIL ADDRESS:

https://www2.fmc.gov/oigcomplaints/
TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                       Federal Maritime Commission
                       Office of Inspector General
                       Room 1054
                       800 North Capitol Street, NW
                       Washington, DC 20573
                       To Be Opened By the IG Only

THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY
SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION
